No. __
In the Supreme Court of the United States
Leonel Cervantes-Meraz
Petitioner,
v.
State of Oregon
Respondent.
Certificate of Compliance
Pursuant to Supreme Court rule 33.1(h), I hereby certify that the Petition for
Certiorari of Leonel Cervantes-Meraz contains 7,983 words, excluding part of the
document exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the following is true and correct.
Executed July 30, 2021
/s/Brian Patrick Conry
Brian Patrick Conry
Law Office of Brian Patrick Conry PC
534 SW 3rd AVE Suite 711
Portland, Oregon 97204
503-274-4430
bpconry@gmail.com

